                                            TESTIMONY OF

                                     ROGER C. VIADERO
                                    INSPECTOR GENERAL
                             U.S. DEPARTMENT OF AGRICULTURE

                                              before the
                                      Committee on Agriculture
                                Subcommittee on Department Operations,
                                   Oversight, Nutrition, and Forestry
                                    U.S. House of Representatives
                                              concerning

                                          Financial Accountability
                                           of the Forest Service

                                              March 11, 1999


MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:




Thank you for the opportunity to be here to testify on financial accountability in the Forest Service.

With me today is Robert Young, Deputy Assistant Inspector General for Audit.



Last month I issued the audit report on the Forest Service's fiscal year 1998 financial statements. My

opinion was a disclaimer - meaning the agency's books and records were in such poor shape I couldn't

do enough work to draw a conclusion. This has been the pattern since the annual audit of financial

statements became law in 1990.



The Forest Service has made significant strides towards improving its financial management systems and

accountability since the advent of the Chief Financial Officer Act in 1990. However, much remains to

be done. Because weaknesses have been so pervasive and long-standing, corrections have been

difficult to achieve within the agency.



                                                     1
Because of our adverse opinion on Forest Service's fiscal year 1995 financial statements, a coordinated

effort was initiated involving the Forest Service, the Office of the Chief Financial Officer, and OIG

towards improving the agency's financial management and accountability. A Financial Health Task

Force was created, and during December 1996, issued a report detailing actions needed within the

Forest Service to become accountable at all levels. Even though Forest Service management was

committed to implement the plan, difficulties and sometimes failed efforts have occurred. OIG has

stayed current on the Forest Service actions to address its financial and management weaknesses

through our annual financial audits. In each of these audits, we recheck and readdress material

weaknesses in the Forest Service's financial systems and internal controls to assess progress and make

recommendations. In addition, through a consulting agreement with the Forest Service, OIG has

assisted the agency in monitoring the implementation of actions pursued under the Financial Health Task

Force plan. Results from these efforts continue to show a need for improvement.



I will separately address the problems having the greatest impact on financial management and

accountability within the Forest Service. The Forest Service estimates that all of the issues will be

overcome by fiscal year 2000. Although the goal is admirable, it is also ambitious, and thus we cannot

assure you that it is attainable.




                                                  2
                                              Real Property



By far the most significant accountability problem the Forest Service has is its management of real

property. The Forest Service is one of the Government's largest owners of land, buildings, and

equipment. Unfortunately, though the Forest Service may be able to see the forest for the trees, it's

uncertain as to what's in the forests, where it is, or how much it's worth. In fiscal year 1997, we could

not verify the $8.2 billion in real property reported by the Forest Service on its financial statements.

This condition existed because all physical inventories and valuations of these assets had not been

completed. To correct the weakness, Forest Service has been working for several years to build a new

automated real property database (called Infrastructure) to account for all real property. In fiscal year

1998, agency personnel conducted real property inventories for the first time in many years in an effort

to populate Infrastructure. At about yearend, most Forest Service units reported their real property

inventory totals and certified them to be correct. Subsequently, however, the values increased by more

than $500 million indicating that the inventories and valuations were, in fact, continuing despite the

certifications. More importantly, pooled assets (primarily roads) of over $3 billion were not inventoried

at all.   Also, Infrastructure does not currently have a mechanism for automatically calculating

depreciation for real property. This results in manual, labor intensive calculations that have been subject

to error. For example, we identified a $213.5 million misstatement in the depreciation expense for the

fiscal year 1998.




                                                    3
We also found, in response to a Congressional request last year, that the Forest Service has no system

or systematic way to compile maintenance backlog information. The Forest Service estimated that for

fiscal year 1998 its deferred maintenance needs were between $7.3 and $8.3 billion. Our review

disclosed that the methodologies used to compile and estimate maintenance costs were generally not

documented, and the definition of what constituted deferred maintenance for real property varied. In

response to our recommendations, the Forest Service has developed a standard definition of what

constitutes deferred maintenance. The process of gathering the information, via what is referred to as a

condition assessment survey, will be several years in duration. As a result, a reasonable estimate of the

maintenance backlog will not be known for some time.



The Forest Service goal is to have accurate real property information by the end of fiscal year 1999.

This continues to be no small task in that it will require populating Infrastructure with a complete physical

inventory that has been properly valuated, to include roads, adding a depreciation module, and

implementing controls to review and verify accuracy at the data entry level.



                               Accounts Receivable and Accounts Payable



Forest Service does not have an integrated accounts receivable system or accounts payable system as

part of its general ledger. The lack of an integrated system means that each month the Forest Service

reporting units must go through a cumbersome manual input process to transmit accounts receivable and

payable data to the general ledger. This process has been conducive to numerous errors.




                                                     4
Entry errors at the field level have resulted in a substantial amount of invalid receivables. For example,

reported receivables have included intra-agency transactions; more specifically, transactions that occur

between segments of the Forest Service that should be eliminated when preparing the financial

statements. Without eliminating these transactions, assets shown by the statements include amounts the

Forest Service expects to receive from itself. In total, Forest Service's financial statements for fiscal

year 1998 had to be adjusted by over $44 million for intra-agency transactions.



Since 1993, the Forest Service has historically computed its accounts payable balance statistically by

identifying the extent of errors likely to have occurred and projecting them over the universe of

transactions, then adjusting the total. Rather than correcting the errors, the Forest Service tries to

estimate how many were made.



The Forest Service is converting to a new general ledger system which will facilitate an integrated

accounts receivable system and accounts payable system; thus improving controls. To be successful,

however, the Forest Service will need to ensure a successful conversion to the new system so that

feeder systems provide accurate and timely accounts receivable and payable data. In addition,

improved supervisory controls at reporting units will be needed to minimize field level entry errors.



                                      Fund Balances with Treasury



For the account "Fund Balances with Treasury", unexplained variances exist between deposits and

disbursements shown in Treasury records when compared to the amounts reflected in the accounting

system used by Forest Service.




                                                     5
The Central Accounting System, or (CAS), used by Forest Service, is maintained by the National

Finance Center, or NFC. For fiscal year 1998, NFC manually adjusted the Department's agencywide

fund balance accounts by $535 million to agree with Treasury records. This adjustment was made

without fully researching and reconciling the differences. As a result, the portion of the adjustment

applicable to Forest Service could not be determined. This situation compares to adjusting your

checkbook to reflect the bank's balance shown by your monthly statement without balancing your

checkbook to determine why the difference exists, thus automatically accepting the bank's reported

balance.



To correct accounting weaknesses in the account "Fund Balances with Treasury", Forest Service must

document the basis for any adjustments made by the agency, and NFC must do the same for

adjustments it makes. Adjustments by NFC must provide sufficient detail to allow allocation of the

adjustment to applicable agencies within the Department. We have continually reported material

weaknesses in the general controls environment at NFC that have hampered the ability of user agencies

to analyze and reconcile accounting data. It is difficult to estimate when these weaknesses might be

resolved. However, it should be noted that even though part of the problem exists at NFC, Forest

Service has the ultimate responsibility for producing and reporting reliable data.



                              Conversion to a New General Ledger System



As previously mentioned, Forest Service is in the process of converting to a new general ledger system,

the Foundation Financial Information System (FFIS). Conversion to FFIS is intended to correct

weaknesses in CAS. The CAS general ledger is not fully integrated with its subsystems, processes

within CAS impede the ability to trace individual transactions back to source documentation, and CAS

does not conform with governmentwide standard general ledger requirements.




                                                     6
FFIS will be maintained by NFC. Conversion to FFIS began during fiscal year 1997, with two out of

the nine Forest Service Regions being converted. The remaining Regions are scheduled for conversion

in October 1999.



Conversion to FFIS has not been easy. The Forest Service has experienced problems with the

production of timely and accurate FFIS budget and account reports, system accounting errors,

integrating subsystems data into FFIS, and conversion of the Forest Service management codes process

to FFIS. Historically the Forest Service has used about 100,000 management codes that contain up to

99 lines of accounting data to allocate fund usage among expanded budget line items. The use of these

management codes pose great risk that fund usage will be improperly reported and we have

recommended their elimination. The Forest Service has proposed reducing the number of management

codes in CAS by more than 50 percent and standardizing the codes throughout the agency. These

codes are to be eliminated when FFIS is fully implemented.



                                                Conclusion



Without correcting the weaknesses in accountability, Forest Service managers' ability to effectively

manage operations, monitor revenue and spending levels, and make informed decisions about future

funding needs will continue to be hampered. Forest Service's financial management and accountability

has been materially deficient for many years, and correction remains a long-term venture needing

continued emphasis and discipline to stay on course. It is critical that an improved general ledger system

such as FFIS be successfully implemented in conjunction with controls to ensure that reporting units

input accurate data through integrated feeder systems and retain supporting documentation. Further,

the real property problems must be rectified -- all assets must be located, and properly valued. If these

efforts are achieved, I believe that Forest Service will no longer be an agency at "high risk".




                                                     7
